Report No. D-2008-057          February 29, 2008




    Contractor Past Performance Information
 Additional Copies

 To obtain additional copies of this report, visit the Web site of the Department of
 Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
 Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
 (703) 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Office of the Deputy
 Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                             ODIG-AUD (ATTN: Audit Suggestions)
                             Department of Defense Inspector General
                             400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

AFMC-ASC             Air Force Materiel Command-Aeronautical System Center
AFSPC-SMC            Air Force Space Command-Space and Missile Center
AMCOM                Aviation and Missile Command
C-E LCMC             Communications-Electronics Life Cycle Management Command
CPARS                Contractor Performance Assessment Reporting System
FAR                  Federal Acquisition Regulation
GAO                  Government Accountability Office
IG                   Inspector General
NAVAIR               Naval Air Systems Command
NAVSEA               Naval Sea Systems Command
PPIMS                Past Performance Information Management System
PPIRS                Past Performance Information Retrieval System
TACOM LCMC           Tank-Automotive and Armaments Life Cycle Management
                        Command
                             INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704




                                                                          February 29, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                 AGENCY
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Report on Contractor Past Performance InfOlmation
         (Report No, D-2008-057)


      We are providing this report for information and use. We considered
management comments on a draft of this report when preparing the final report.

        Comments on the draft of this report confol1ned to requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Benjamin A. Mehlman at (703) 604-9291 (DSN 664-9291) or Mr. Rudolf
Noordhuizen at (703) 604-8959 (DSN 664-8959). See Appendix C for the report
distribution. The team members are listed on the inside of the back cover.

                               By direction of the Deputy Inspector General for Auditing:
                                                                   <...



                                 ~~~~
                                         Richard B. Jolliffe
                                   Assistant Inspector General
                               Acquisition and Contract Management
                Department of Defense Office of Inspector General
Report No. D-2008-057                                                    February 29, 2008
   Project No. D2006-D000AB-0207.000

                   Contractor Past Performance Information

                                 Executive Summary

Who Should Read This Report and Why? Congressional, civilian, and military
personnel responsible for contracting and managing acquisition programs should read
this report to obtain information about contractor past performance information. This
report discusses problems associated with the registration, reporting, quality, and usage
of contractor past performance information.

Background. In the 1994 Federal Acquisition Streamlining Act, Congress
acknowledged that it is appropriate and relevant for the Government to consider a
contractor’s past performance in evaluating whether that contractor should receive future
work. Past performance information is relevant for future source selection purposes,
regarding a contractor’s actions under previously awarded contracts. The Federal
Acquisition Streamlining Act states that past contract performance of an offeror is one of
the relevant factors that a contracting official of an Executive branch agency should
consider in awarding a contract; it is appropriate for a contracting official to consider past
contract performance of an offeror as an indicator of the likelihood that the offeror will
successfully perform a contract to be awarded by that official.

The Contractor Performance Assessment Reporting System was created in 1998 by the
Navy to meet Federal Acquisition Regulation requirements for the collection and
evaluation of contractor past performance information. On December 17, 2004, the
Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics,
Defense Procurement and Acquisition Policy designated the Contractor Performance
Assessment Reporting System as the DoD’s solution for collecting contractor past
performance information. The primary purpose of the Contractor Performance
Assessment Reporting System is to ensure that data on contractor performance are
current, available, and entered into the Past Performance Information Retrieval System
where it can be retrieved by Federal Government agencies, including DoD Departments.

Results. The DoD Contractor Performance Assessment Reporting System did not
contain all active system contracts over $5 million. In addition, for system contracts
that were in the DoD Contractor Performance Assessment Reporting System and
reviewed during the audit, we found that:

    •   39 percent were registered more than a year late;
    •   68 percent had performance reports that were overdue; and



                                              i
    •   82 percent of past performance assessment reports reviewed did not contain
        detailed, sufficient narratives to establish that ratings were credible and
        justifiable.

As a result, Government acquisition officials do not have all past performance
information needed to make informed decisions related to market research, contract
awards, and other acquisition matters (see the finding).

Military Department internal controls were not adequate. We identified material internal
control weaknesses for Military Departments over contractor past performance
information including procedures to initiate registration of contracts in the Contractor
Performance Assessment Reporting System, procedures to prepare performance
assessment reports in a timely manner, procedures to write detailed and qualified
assessments of performance information, and procedures to purge unneeded data.

The Under Secretary of Defense for Acquisition, Technology, and Logistics should
establish the requirement to register contracts in the Contractor Performance Assessment
Reporting System within 30 days from contract award and to complete individual
contract performance assessment reports within 120 days from the end of contract
evaluation periods. He should also require formal training on writing past performance
assessment report narratives and corresponding ratings for the DoD Contractor
Performance Assessment Reporting System assessing officials and the individuals who
review draft past performance assessment reports. The Under Secretary should require
the Military Department major commands to reconcile active contracts with contracts
registered in the Contractor Performance Assessment Reporting System. In addition, the
Under Secretary should require the Military Department major commands to register all
unregistered systems contracts over $5 million and begin preparing required
performance assessment reports, monitor and enforce compliance with the 30-day
registration requirement and 120-day reporting requirement for future systems contracts
over $5 million, and remove excess and outdated information from the Contractor
Performance Assessment Reporting System. (See the Finding section of the report for
the detailed recommendations.)

Management Comments and Audit Response. We received comments from the
offices of the Under Secretary of Defense for Acquisition, Technology, and Logistics;
and the Assistant Secretary of the Air Force for Acquisition, concurring with our
recommendations. The comments were responsive to the issues we identified in our
report and no additional comments are needed. See the Finding section for a discussion
of the management comments and the Management Comments section for the complete
text of the comments.




                                           ii
Table of Contents

Executive Summary                                                             i

Background                                                                    1

Objectives                                                                    2

Review of Internal Controls                                                   2

Finding
     Management of Contractor Past Performance Information                    4


Appendixes
     A. Scope and Methodology                                                19
         Prior Coverage                                                      20
     B. Contractor Past Performance Rating System                            22
     C. Report Distribution                                                  26

Management Comments
     Office of the Under Secretary of Defense for Acquisition, Technology,
           and Logistics                                                     29
     Department of the Air Force                                             31
Background
    In the 1994 Federal Acquisition Streamlining Act (the Act), Congress
    acknowledged that it is appropriate and relevant for the Government to consider a
    contractor’s past performance in evaluating whether that contractor should
    receive future work. The Act states that past contract performance of an offeror is
    one of the relevant factors that a contracting official of an Executive branch
    agency should consider in awarding a contract and it is appropriate for a
    contracting official to consider past contract performance of an offeror as an
    indicator of the likelihood that the offeror will successfully perform a contract to
    be awarded by that official. Federal Acquisition Regulation (FAR) 42.15,
    “Contractor Performance Information,” requires that contractor performance
    information be collected and FAR 15.304, “Evaluation Factors and Subfactors,”
    requires the use of past performance information in source selection evaluations
    expected to exceed the simplified acquisition threshold.

    Past Performance Information Retrieval System. The Past Performance
    Information Retrieval System (PPIRS) is a Web-enabled, Government-wide
    application that assists Federal acquisition officials in making source selection
    decisions by consolidating information from Federal performance information
    collection systems. The PPIRS functions as the central warehouse for
    performance assessment reports received from other Federal performance
    information collection systems and provides a query capability for authorized
    Federal acquisition community users to retrieve report card information detailing
    a contractor’s past performance. The PPIRS complies with a July 3, 2002, Office
    of Management and Budget memorandum that all Federal contractor past
    performance information be available online for use by all Federal agency
    contracting officials. The PPIRS is a DoD Business Transformation Agency
    system that is maintained by the Naval Sea Logistics Center detachment in
    Portsmouth, New Hampshire.

    Contractor Performance Assessment Reporting System. The DoD’s “A Guide
    to Collection and Use of Past Performance Information,” May 2003, requires that
    past performance assessment reports be completed annually by customers during
    the life of the contract. The Contractor Performance Assessment Reporting
    System (CPARS) was created in 1998 by the Navy to meet FAR requirements for
    the collection and evaluation of contractor past performance information. On
    December 17, 2004, the Office of the Under Secretary of Defense for Acquisition,
    Technology, and Logistics, Defense Procurement and Acquisition Policy
    designated the CPARS as the DoD’s solution for collecting contractor past
    performance information. The primary purpose of the CPARS is to ensure that
    data on contractor performance are current, available, and electronically
    transferred to the PPIRS where it can be retrieved by Federal Government
    agencies, including DoD Departments. DoD officials must register, rate, report,
    and annually update contracts in the CPARS. The CPARS is used by the Navy,
    Air Force, and starting in 2007, the Army. The CPARS is also a DoD Business
    Transformation Agency system that is administered by the Naval Sea Logistics
    Center. As of June 30, 2007, the Military Departments had 18,538 contracts
    registered in the CPARS. This total includes the four key business sectors
    required to report in the CPARS: Systems, Services, Operations Support, and

                                         1
     Information Technology. Forty-eight percent of those contracts were registered
     more than 365 days from contract award. Eighty-five percent were registered
     more than 30 days after contract award. We limited our review to systems
     contracts.

     The value of the CPARS to a future source selection team is inextricably linked to
     the care the assessing official takes in preparing a quality narrative to accompany
     the Government’s assessment of contractor performance. Performance
     assessment reports aid in awarding contracts and task orders to contractors who
     consistently provide quality, on-time products and services that conform to
     contractual requirements.

     Past Performance Information Management System. The Past Performance
     Information Management System (PPIMS) is the Army’s Web-based performance
     assessment application managed by the Army Acquisition, Logistics, and
     Technology Enterprise System Services in Radford, Virginia. Like the PPIRS
     and the CPARS, the PPIMS gathers performance reporting information to aid in
     future source selection decisions. The Army transitioned from the PPIMS to the
     CPARS in early 2007, but the Army has encountered widespread problems in
     accessing performance assessment reports in both systems.


Objectives
     The overall audit objective was to determine whether the Military Departments
     were properly collecting and maintaining system acquisition past performance
     information for use in award decisions. Specifically, the audit evaluated whether
     program management officials properly prepared evaluations of contractor
     performance and entered this information into the PPIRS. In addition, the audit
     evaluated whether past performance information was used by acquisition officials
     in awarding contracts. We also reviewed the implementation of the management
     controls applicable to the objectives area. See Appendix A for a discussion of the
     audit scope and methodology as well as prior audit coverage.


Review of Internal Controls
     We identified material internal control weaknesses for Military Departments as
     defined by DoD Instruction 5010.40, “Managers’ Internal Controls (MIC)
     Program Procedures,” January 4, 2006. Military Departments did not have the
     internal controls over contractor past performance information including
     procedures to initiate registration of contracts in the CPARS, procedures to
     prepare performance assessment reports in a timely manner, and procedures to
     write detailed and qualified assessments of performance information.
     Implementing Recommendations 1., 2.a., and 2.b. will improve registration and
     reporting timeliness; and implementing Recommendation 2.c. will improve
     relevancy of contractor past performance information. A copy of the final report



                                          2
will be provided to the senior official responsible for internal controls in the
Army, Navy, and Air Force, and the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics.




                                    3
                    Management of Contractor Past
                    Performance Information
                    The DoD CPARS did not contain all active system contracts over
                    $5 million. In addition, for system contracts that were in the DoD
                    CPARS and reviewed during the audit, we found that:

                        •    39 percent were registered more than a year late from contract
                             award;
                        •    68 percent had performance reports that were overdue; and

                        •    82 percent of past performance assessment reports reviewed did
                             not contain detailed, sufficient narratives to establish that ratings
                             were credible and justifiable.

                    This occurred due to a lack of Office of the Secretary of Defense and
                    Military Department emphasis and guidance on timely registering
                    system contracts in the CPARS, accurate and timely reporting of past
                    performance in the CPARS, and training for past performance
                    assessment report preparation. As a result, Government acquisition
                    officials do not have necessary past performance information needed to
                    make informed decisions related to market research, contract awards,
                    and other acquisition matters.


Past Performance Registration and Reporting Requirements
           FAR Past Performance Requirements. FAR Section 42.15, “Contractor
           Performance Information,” states that agencies shall prepare an evaluation of
           contractor performance for each contract that exceeds the simplified acquisition
           threshold of $100,000 in order to provide current information for source selection
           purposes.

           On January 29, 1999, the Director for Defense Procurement, Office of the Under
           Secretary of Defense for Acquisition, Technology, and Logistics approved a class
           deviation for DoD system 1 contracts that increased the past performance
           reporting threshold to $5 million.

           FAR 15.304, “Evaluation Factors and Subfactors,” requires the use of past
           performance information in source selections for negotiated competitive
           acquisitions expected to reach the simplified acquisition threshold.

           DoD Past Performance Guidance. The DoD’s “A Guide to Collection and Use
           of Past Performance Information,” May 2003, explains the best practices for the

1
    System contracts include products that require a significant amount of new engineering development
    work, major modification/upgrade efforts for existing systems, as well as acquisition of new systems,
    such as aircraft, ships, space, ordnance, ground vehicles, training systems, and other systems.
                                                       4
use and collection of past performance information. The guide states that when
collecting past performance information it is best to employ a consistent
evaluation methodology to identify and describe the performance of DoD
contractors. DoD has established common assessment elements and ratings to
standardize the methodology used to rate DoD contractor performance.
Supportive narrative rationales for all performance ratings assigned are
mandatory in DoD. The narratives are critical to any past performance
information assessment and necessary to establish that the ratings are credible and
justifiable.

The “DoD Contractor Performance Assessment Reporting System Policy Guide,”
March 2007 (revised in June 2007), requires all new contracts meeting the dollar
threshold for reporting to be registered in the CPARS within 30 days from
contract award. Registering establishes an initial contract record and facilitates
subsequent past performance reporting in the CPARS. The guide requires annual
issuance of contract past performance assessment reports for the life of the
contract. In addition, the guide states that annual past performance assessment
reports should be completed no later than 120 days after the end of the evaluation
period.

The “DoD Contractor Performance Assessment Reporting System Policy Guide”
was the first DoD policy to state the 30-day registration and 120-day reporting
timeline requirements. Prior DoD guides contained no specified timeline for
registration and reporting. However, since the inception of the system in 1998,
the CPARS has calculated its registration and reporting status using the 30-day
registration and 120-day reporting timeline.

Navy and Air Force guidance addressed the 30-day registration and 120-day
reporting timeline as far back as October 1999 and May 2002, respectively. The
“DoD Contractor Performance Assessment Reporting System Policy Guide” also
states that past performance assessment reports must include a factual narrative
regardless of the rating in support of the area assessment and must contain
objective data to support the assigned rating. See Appendix B for a description of
the CPARS rating systems.

Army CPARS Guide. The Army has not issued a past performance guide.

Navy CPARS Guide. The “Contractor Performance Assessment Reporting
System (CPARS), Department of the Navy,” February 2004, states that all new
contracts meeting the reporting thresholds should be registered in the CPARS
within 30 days from contract award. In addition, the guide states that the annual
past performance assessment reports should be completed no later than 120 days
after the end of the evaluation period. The February 2004 guide is a revision of
the October 1999 guide, which also included the 30-day and 120-day specified
time constraints for registration and reporting. The guide also states each past
performance assessment report must be based on objective data or measurable,
subjective data when objective data are not available and include a short, factual,
narrative statement for all assigned performance ratings.

Air Force CPARS Guide. The “Contractor Performance Assessment Reporting
System (CPARS) Guide, Department of the Air Force,” February 2004, states that
all new contracts meeting the reporting thresholds should be registered in the
                                     5
    CPARS within 30 days from contract award. In addition, the guide states that the
    annual past performance assessment reports should be completed no later than
    120 days after the end of the evaluation period. The February 2004 guide is a
    revision of the May 2002 guide; the revision section of the guide does not report a
    change to the specified timeline for registration and reporting. The guide also
    states that each past performance assessment report must be based on objective
    data or measurable, subjective data when objective data are not available and
    include a short, factual, narrative statement for all assigned performance ratings.

Registration Accuracy
    The DoD did not ensure that all active system contracts over $5 million were
    registered. We reviewed and analyzed registration accuracy at select commands
    within the Army, Navy, and Air Force as discussed in the following paragraphs.
    We identified 321 Army, 138 Navy, and 75 Air Force systems contracts that met
    the $5 million reporting threshold but were not registered in the CPARS.
    Contracts that have not been registered are not reported, and therefore have no
    past performance assessment reports within the CPARS.

    Automatic Registration. The Army PPIMS had an automatic registration
    function capability. The DoD CPARS deployed an automatic registration
    function capability on February 17, 2007, similar to Army’s. This functionality
    obtains contract action report data from the Federal Procurement Data System-
    Next Generation. As long as an activity’s contract writing system feeds into
    Federal Procurement Data System-Next Generation, then the contract action
    report records would make it into the CPARS. Automatic registration means that
    the contract is available in the CPARS for registration, but the CPARS Focal
    Point has to actually “hit the button” to move it from the list of available contracts
    to the list of those actually registered in the CPARS. A CPARS official stated
    that automatic registration is an excellent tool, but it’s not a perfect process. In
    addition, the official stated that many activities may be backlogged in getting
    their contract action report data into the Federal Procurement Data System-Next
    Generation. If a contract is FY 2005 or later and meets the reporting thresholds,
    then it should be pulled through into automatic registration. However, delivery
    order contracts with the aggregate of the orders above the reporting threshold and
    individual orders below the reporting threshold may not feed into the CPARS
    automatic registration because the CPARS treats each order as a separate contract.
    CPARS provides a manual registration process for contracts that are not available
    in the automatic registration feature.

    Army. The Army did not ensure that all eligible contracts were registered in
    the CPARS. We reviewed and analyzed the registration data for three Army
    commands, the Army Aviation and Missile Command (AMCOM), the Army
    Communications-Electronics Lifecycle Management Command (C-E LCMC),
    and the Army Tank-automotive and Armaments Lifecycle Management
    Command (TACOM LCMC). The Army commands provided a list of current
    system contracts meeting the FAR past performance reporting threshold
    requirements. By comparing this to the CPARS contract inventory, we identified
    4 contracts at AMCOM, 32 at C-E LCMC, and 285 at TACOM LCMC that met
    the $5 million reporting threshold but were not registered in the CPARS.
                                          6
     TACOM LCMC did not participate in the registration of system contracts in the
     PPIMS or the evaluation of contractor work performance. As of August 3, 2006,
     TACOM LCMC had 999 contracts in the PPIMS with no action taken on them, as
     opposed to 2 pending actions from AMCOM and 1 pending action from
     C-E LCMC. The award year of the 999 contracts ranged from 1990 through
     2006.

     Navy. The Navy did not ensure that all eligible contracts were registered in the
     CPARS. We reviewed and analyzed the registration data for two Navy
     commands, the Naval Air Systems Command (NAVAIR) and the Naval Sea
     Systems Command (NAVSEA). The Navy had contracts that met the criteria but
     were not registered in the CPARS. The Navy commands provided a list of
     current system contracts meeting the FAR past performance reporting threshold
     requirements. By comparing this to the CPARS contract inventory, we identified
     53 unregistered contracts at NAVAIR and 85 at NAVSEA.

     Air Force. The Air Force did not ensure that all eligible contracts over
     $5 million were registered in the CPARS. We reviewed and analyzed the
     registration data for two Air Force commands, the Air Force Materiel Command-
     Aeronautical System Center (AFMC-ASC) and the Air Force Space Command-
     Space and Missile Center (AFSPC-SMC). The Air Force had contracts that met
     the reporting threshold but were not registered in the CPARS. The Air Force
     commands provided a list of current system contracts meeting the FAR past
     performance reporting threshold requirements. By comparing this with the
     CPARS contract inventory, we identified 59 unregistered contracts at
     AFMC-ASC and 16 at AFSPC-SMC.

Registration Timeliness
     DoD did not ensure most active system contracts over $5 million were registered
     in the CPARS in a timely manner. We found that 39 percent of contracts
     reviewed were registered more than a year after contract award. Timely
     registration is important because it ensures that personnel will have time for
     proper surveillance and documentation to adequately report on the entire period
     of performance in the initial annual past performance assessment.

     Contract registration establishes the initial record and facilitates subsequent past
     performance reporting in the CPARS. As of June 30, 2007, the selected Army,
     Navy, and Air Force commands had 2,732 systems contracts registered in the
     CPARS. Of these contracts, 50 had inaccurate registration data and 183 were
     awarded prior to January 1, 1998, when the FAR established the past performance
     reporting requirement.

     We analyzed the remaining 2,499 system contracts awarded since January 1,
     1998, to determine the number of days from contract award until the contract was
     registered. As shown in Table 1 as follows, the majority of those contracts were
     not registered in a timely manner.




                                          7
                 Table 1. Days to Register Systems Contracts
                   in the CPARS by Military Department
                            (as of June 30, 2007)

                      30 Days    31–180      181–365 More Than
   Department         or Less     Days        Days   365 Days Total

     Army                643        192         102         285      1,222
     Navy                115        209         191         535      1,050
     Air Force             5         29          38         155        227
     Total               763        430         331         975      2,499

Contracts that are registered late often have no reports for earlier evaluation
periods that were due prior to the contracts being registered in the CPARS. We
reviewed and analyzed the timeliness of registrations for select commands within
the Army, Navy, and Air Force.

Army. As of June 30, 2007, the three Army commands reviewed had
1,302 contracts registered and current in the CPARS. Of these contracts, 31 had
inaccurate registration data and 49 were awarded prior to January 1, 1998, when
the FAR established the past performance reporting requirement. We analyzed
the remaining 1,222 contracts to determine the number of days from contract
award that the contract was registered. Of the 1,222 contracts, 285 contracts, or
23 percent, were registered more than 365 days after the contract award date.
Table 2 shows the registration times for the Army systems contracts registered in
the CPARS as of June 30, 2007.

                      Table 2. Days to Register Systems
                     Contracts in the CPARS by the Army
                             (as of June 30, 2007)

                      30 Days    31–180      181–365 More Than
   Command            or Less     Days        Days   365 Days Total

    AMCOM                614        138          80         179      1,011
    C-E LCMC              15         29           4          50         98
    TACOM LCMC            14         25          18          56        113
    Total                643        192         102         285      1,222

Navy. As of June 30, 2007, the two Navy commands reviewed had
1,173 contracts registered and current in the CPARS. Of these contracts, 16 had
inaccurate registration data and 107 were awarded prior to January 1, 1998, when
the FAR established the past performance reporting requirement. We analyzed
the remaining 1,050 contracts to determine the number of days from contract
award that the contract was registered. Of the 1,050 contracts, 535 contracts,



                                    8
    or 51 percent, were registered more than 365 days after the contract award date.
    Table 3 shows the registration times for the Navy systems contracts registered in
    the CPARS as of June 30, 2007.

                              Table 3. Days to Register Systems
                             Contracts in the CPARS by the Navy
                                     (as of June 30, 2007)

                          30 Days    31–180      181–365 More Than
       Command            or Less     Days        Days   365 Days Total

        NAVAIR                88        145          139         350       722
        NAVSEA                27         64           52         185       328
        Total                115        209          191         535     1,050

    Air Force. As of June 30, 2007, the two Air Force commands reviewed had
    257 contracts registered and active in the CPARS. Of these contracts, 3 had
    inaccurate registration data and 27 were awarded prior to January 1, 1998, when
    the FAR established the past performance reporting requirement. We analyzed
    the remaining 227 contracts to determine the number of days from contract award
    that the contract was registered. Of the 227 contracts, 155 contracts, or
    68 percent, were registered more than 365 days after the contract award date.
    Table 4 shows the registration times for the Air Force systems contracts registered
    in the CPARS as of June 30, 2007.

                          Table 4. Days to Register Systems
                       Contracts in the CPARS by the Air Force
                                 (as of June 30, 2007)

                          30 Days    31–180      181–365 More Than
       Command            or Less     Days        Days   365 Days Total

      AFMC-ASC                 5          26          30         115       176
      AFSPC-SMC                0           3           8          40        51
      Total                    5          29          38         155       227

Past Performance Assessment Reporting Timeliness
    The DoD did not ensure that all eligible contracts over $5 million had current past
    performance assessment reports completed annually in the CPARS. We found
    that 68 percent of contracts reviewed had performance reports that were overdue.
    In addition, reporting was not accomplished in a timely manner. Past
    performance assessment reports should be completed in a timely manner to ensure
    that current information is available for Government acquisition officials to make
    informed decisions related to market research, contract awards, and other
    acquisition matters. All contracts meeting the reporting threshold must report
    regardless of when the contract was awarded. The past performance assessment
    report process takes time to complete; the past performance assessment report
                                          9
must be written, reviewed, and approved by command officials; the contractor
must be given time to review and comment; and time is needed to address any
disagreements between the Government and the contractor. However, as more
time passes to complete a past performance assessment report and make it
available to Government acquisition officials, the past performance information
becomes less valuable. As of June 30, 2007, the selected Army, Navy, and Air
Force commands had 2,732 contracts registered. Of these contracts, 128 had final
reports in the CPARS. Table 5 below shows the reporting status of the
2,604 remaining contracts in the CPARS at the selected commands and that
68 percent of the performance reports were overdue as of June 30, 2007. A newly
awarded contract was current when the performance period had begun, was less
than 365 days old, and the contract completion date had not been reached. For
newly awarded contracts with a performance period greater than 365 days, the
contract was current when work had started, but was less than 365 days in
duration. For ongoing contracts, the contract is current when the performance
period is less than 365 days from the performance period end date of the last
completed assessment report. A contract is due when the 1-year period of
performance is complete or the contract completion date has been reached. An
overdue contract is one where 120 days have elapsed beyond the end of the period
of performance or it is 120 days beyond the contract completion date. The
CPARS also identifies whether a past performance report is the final report for
that contract.

        Table 5. CPARS Reporting Status for Selected Command Contracts
                           (as of June 30, 2007)

                                                                      Percent
       Department     Current     Due       Overdue        Total      Overdue

         Army            177      106        1,019         1,302          78
         Navy            198      152          742         1,092          68
         Air Force       108       78           24           210          11
         Total           483      336        1,785         2,604          68

We reviewed and analyzed the timeliness of reporting for select commands within
the Army, Navy, and Air Force.

Army. The Army did not ensure that all eligible contracts over $5 million had
current past performance assessment reports completed annually in the CPARS.
In addition, past performance reporting was not accomplished in a timely manner.
We reviewed and analyzed the system contract reporting status in the CPARS at
AMCOM, C-E LCMC, and TACOM LCMC. As of June 30, 2007, the selected
Army commands had 1,302 contracts registered. The Army had no final reports
in the CPARS. Table 6 below shows the reporting status of the Army systems
contracts in the CPARS and that 78 percent of the performance reports were
overdue as of June 30, 2007.



                                   10
  Table 6. CPARS Reporting Status for Selected Army Systems Contracts
                         (as of June 30, 2007)

                                                                        Percent
       Department      Current     Due       Overdue         Total      Overdue

        AMCOM     103              64           905         1,072          84
        C-E LCMC   37              25            52           114          46
        TACOM LCMC 37              17            62           116          53
        Total     177             106         1,019         1,302          78

In addition, the unregistered Army contracts do not have past performance
assessment reports within the CPARS. AMCOM had 4 unregistered contracts,
C-E LCMC had 32, and TACOM LCMC had 285. These contracts were awarded
from 1995 through 2006.

As an example of the importance of untimely reviews, one Army contractor stated
after receiving an untimely past performance assessment report that they did not
understand why they received an assessment for an evaluation period that ended
more than a year ago. In addition, the contractor stated a more timely evaluation
would have allowed them the opportunity to correct the shortcomings identified
in the past performance assessment report.

Navy. The Navy did not ensure that all eligible contracts over $5 million had
current past performance assessment reports completed annually in the CPARS.
In addition, reporting was not accomplished in a timely manner. We reviewed
and analyzed the reporting data in the CPARS for two Navy commands,
NAVAIR and NAVSEA. As of June 30, 2007, the selected Navy commands had
1,173 contracts registered. Of these contracts, 81 had final reports in the CPARS.
Table 7 below shows the reporting status of the 1,092 remaining contracts in the
CPARS at the selected commands and that 68 percent of the performance reports
were overdue as of June 30, 2007.

    Table 7. CPARS Reporting Status for Selected Navy System Contracts
                       (as of June 30, 2007)

                                                                        Percent
       Department      Current     Due       Overdue         Total      Overdue

        NAVAIR           117       96          556            769          72
        NAVSEA            81       56          186            323          58
        Total            198      152          742          1,092          68

In addition, the Navy unregistered contracts do not have past performance
assessment reports within the CPARS. NAVAIR had 53 unregistered contracts
and NAVSEA had 85. These contracts were awarded from 1999 though 2007.

Air Force. The Air Force did not ensure that all eligible contracts over
$5 million had current past performance assessment reports completed annually in
                                    11
           the CPARS. In addition, reporting was not accomplished in a timely manner. We
           reviewed and analyzed the reporting data in the CPARS for two Air Force
           commands, AFMC-ASC and AFSPC-SMC. As of June 30, 2007, the selected Air
           Force commands had 257 contracts registered. Of these contracts, 47 had final
           reports in the CPARS. Table 8 below shows the reporting status of the
           210 remaining contracts in the CPARS at the selected commands and that
           11 percent of the performance reports were overdue as of June 30, 2007.

            Table 8. CPARS Reporting Status for Selected Air Force System Contracts
                                    (as of June 30, 2007)

                                                                                                Percent
                   Department         Current        Due        Overdue            Total        Overdue

                AFMC-ASC                 80          63           14                157              9
                AFSPC-SMC                28          15           10                 53             19
                Total                   108          78           24                210             11

           In addition, the Air Force unregistered contracts do not have past performance
           assessment reports within the CPARS. AFMC-ASC had 59 unregistered
           contracts and AFSPC-SMC had 16. These contracts were awarded from 1991
           through 2006.

Past Performance Assessment Narratives
           Past performance assessment reports did not contain sufficient narratives to
           establish that ratings were credible and justifiable. Military Department assessing
           officials did not support performance ratings with the necessary narrative to
           support the performance assessment report ratings. It is of the utmost importance
           that the assessing official submits a narrative consistent with the definitions of
           each rating and thoroughly describes the circumstances surrounding a rating. We
           reviewed 66 past performance assessment reports 2 and found that 54 reports
           (82 percent) had assessment ratings that were not fully supported by the
           accompanying narrative. Table 9 shows the past performance assessment reports
           reviewed at the seven major commands visited and the number found inadequate
           by command.




2
    The 66 past performance assessment reports reviewed were from a judgmental sample; as a result the
    82 percent does not generalize to the total universe of past performance assessment reports in CPARS.
                                                      12
                           Table 9. Military Department Command Systems
                           Past Performance Assessment Reports Reviewed

                                                     Reports               Inadequate
                           Command                  Reviewed               Narratives

                           AMCOM                         7                       6
                           C-E LCMC                     20                      19
                           TACOM LCMC 3                  1                       0
                           NAVAIR                        6                       5
                           NAVSEA                       10                       7
                           AFMC-ASC                     12                       9
                           AFSPC-SMC                    10                       8
                           Total                        66                      54


           In 48 of the 54 inadequate narratives, past performance assessment reports lacked
           contract effort descriptions or were not detailed enough to assist future source
           selection officials in determining the relevance of this program to their source
           selection. In 53 of the 54 inadequate narratives, past performance assessment
           reports contained narratives that were vague, lacked facts, did not adequately
           describe benefits to the Government, or did not justify the assessment ratings, and
           in 1 of the 54 inadequate narratives, only a performance rating was entered into
           the CPARS with no written narrative entered to justify the rating. Assessing
           officials did not always provide a narrative in all 13 performance elements in each
           past performance report; however, they rated the non-assessed elements.

           The contract effort description section of the past performance assessment report
           is of critical importance to future source selection officials. The description
           should be detailed enough to assist future source selection officials in determining
           the relevance of this program to their source selection. The narratives are critical
           to any past performance information assessment report and necessary to establish
           that the ratings are credible and justifiable. It is important that the assessing
           official submits a rating consistent with the definitions of each rating and
           thoroughly describes the circumstances surrounding a rating. The value of the
           CPARS to a future source selection team is linked to the care the assessing
           official takes in preparing a quality and timely narrative to accompany the
           CPARS ratings. The absence of specific contract effort descriptions and
           sufficient narratives to support the assigned ratings could have an adverse impact
           on the source selection authority’s ability to select the best-qualified contractor.




3
    TACOM LCMC did not prepare past performance reports. As a result, only one assessment report was
    available for audit review.
                                                   13
DoD Emphasis
    DoD lacked emphasis and guidance on the timely registering of system
    contracts in the CPARS, the timely and accurate reporting of past performance
    in the CPARS, and the training for past performance assessment report
    preparation.
    The “DoD Contractor Performance Assessment Reporting System Policy Guide,”
    June 2007, is the first DoD policy to state a 30-day registration and 120-day
    reporting timeline for the CPARS. However, we believe a policy guide is no
    more than a practical reference tool with suggested requirements. To ensure that
    the Military Departments register and report past performance in the CPARS, we
    believe DoD must establish actual time-specified registration and reporting
    requirements.

    DoD did not have a process to ensure that all systems contracts were registered in
    the CPARS. The responsibility for registering the contracts in the CPARS varied
    by major command directorates within each Military Department between the
    contracting office and the program management office. One major command
    managed the annual past performance reporting requirement based on the contract
    inventory within the CPARS. As a result, if a contract was not registered in the
    CPARS, the command was unaware of the requirement for the contract to be
    reported. In addition, the command could not issue past performance assessment
    reports because the contracts were not registered or were not registered in a
    timely manner. The CPARS has contracts that were registered with no past
    performance assessment reports issued, past performance assessment reports that
    have never been completed though the contracts have been completed, and
    duplicate reports.

    The value of the CPARS to a future source selection team is linked to the care the
    assessing official takes in preparing a quality and timely narrative to accompany
    the CPARS ratings. The objective when collecting past performance information
    is to employ a consistent evaluation methodology to identify and describe the
    performance of DoD contractors. DoD does not require assessing officials and
    the individuals who review draft past performance assessment reports to take
    formal training on writing past performance assessment report narratives and
    corresponding ratings. However, training is needed to teach assessing officials to
    accurately document past performance information in past performance
    assessment report narratives and how to accurately rate performance.

    As long as there is a lack of DoD emphasis on registering contracts, issuing
    annual past performance assessment reports, and requiring past performance
    process training to ensure the CPARS past performance assessment reports are
    credible and justifiable, current and relevant past performance information will
    not be available for use by Government acquisition officials.




                                        14
Availability of Past Performance Information
     Government acquisition officials do not have current and relevant past
     performance information needed to make informed decisions related to market
     research, contract awards, and future acquisitions. As shown previously, many
     contracts were registered late or not at all. Past performance assessment reports
     were not current for all contracts registered in the CPARS. FAR 15.304,
     “Evaluation Factors and Subfactors,” requires the use of past performance
     information in source selection evaluations. We reviewed the award
     documentation for negotiated competitive source selections for the selected major
     commands within the Military Departments. Table 10 shows the number of
     contracts we reviewed at each of the major commands where past performance
     information was used as an evaluation factor.

          Table 10. Major Commands Use of Past Performance Information
                             as an Evaluation Factor

                                                              Past         Past
                                                          Performance Performance
                                              Number of       as an    Information
         Military             Major           Contracts    Evaluation Obtained From
        Department           Command          Reviewed       Factor   CPARS/PPIRS

         Army                 AMCOM               7              7             3
         Army                C-E LCMC             7              7             1
         Army              TACOM LCMC             7              7             0
         Navy                 NAVAIR             10             10            10
         Navy                NAVSEA              10             10             5
         Air Force          AFMC-ASC              6              6             6
         Air Force          AFSPC-SMC            13             13             6
         Total                                   60             60            31

     Past performance information was an evaluation factor in all 60 negotiated
     competitive source selection contracts reviewed. However, source selection
     award documentation shows that past performance information was obtained from
     the PPIRS for only 31 of the 60 contracts reviewed. Source selection officials
     obtained additional or alternative past performance information from surveys and
     interviews based on contract information provided by the offerors. Some major
     command contracting officials stated that it was often difficult based on vague
     contract effort descriptions to determine whether the past performance assessment
     reports in the CPARS were relevant to the new source selection. High ratings
     without adequate narratives to support the assigned ratings made officials
     question the validity of the CPARS past performance assessment reports. In
     addition, the CPARS does not always have current and relevant past performance
     assessment reports available for source selection. Because of the vague contract
     effort descriptions, the lack of sufficient past performance narratives to support
     the assigned ratings, and missing past performance assessment reports,

                                         15
    contracting officials could be relying on unsupported performance ratings to
    evaluate past performance of contractors when awarding competitive contracts.


Conclusion
    FAR 42.15, “Contractor Performance Information,” requires agencies to prepare
    an evaluation of contractor performance for each contract that exceeds the
    simplified acquisition threshold in order to provide current information for source
    selection purposes. FAR 15.304, “Evaluation Factors and Subfactors,” requires
    the use of past performance information in source selections for negotiated
    competitive acquisitions expected to reach the simplified acquisition threshold.
    DoD has issued policy guidance for these FAR requirements.

    Registration of contracts after award and reporting of contractor past performance
    on contracts create an overlapping problem. For contracts that were not
    registered, past performance reports were not generated. As shown above,
    contracts were not being registered or reported in a timely manner. As of June 30,
    2007, 39 percent of the contracts were registered more than 365 days after
    contract award. As of June 30, 2007, 69 percent of the CPARS past performance
    assessment reports were overdue and many contracts had not issued past
    performance assessment reports.

    As February 17, 2007, the CPARS has an automatic registration function
    capability. Automatic registration means that the contract is available in the
    CPARS for registration, but the CPARS Focal Point has to actually “hit the
    button” to move it from the list of available contracts to the list of those actually
    registered in the CPARS. DoD must ensure that commands follow through to
    ensure contracts are registered. All commands should perform a reconciliation of
    active system contracts over $5 million to ensure that all required contracts are
    registered and reported. This reconciliation should include delivery order
    contracts with the aggregate of the orders above the reporting threshold. In
    addition, commands should not try to complete old outdated reports but should
    ensure that current reports are completed for all contracts. In addition, 82 percent
    of the past performance assessment reports reviewed lacked adequate contract
    effort descriptions and narratives to support the assigned performance rating.

    Policy guidance is no more than a practical reference tool with suggested
    requirements. Until DoD establishes actual time-specified registration and
    reporting requirements and mandatory training for assessing officials, we believe
    the Military Departments will not make contract registration and reporting in the
    CPARS a priority. When contracts are not registered, past performance
    assessments reports are not completed in the CPARS in a timely manner, and past
    performance assessment reports are not credible and justifiable, Government
    acquisition officials will not have the proper information needed to assure that
    they are awarding best-value contracts and orders to contractors that consistently
    provide quality, on-time products and services that conform to contractual
    requirements.


                                         16
Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics establish a requirement to:

          a. Register contracts in the Contractor Performance Assessment
    Reporting System within 30 days from contract award;

           b. Complete the annual past performance assessment reports in the
    Contractor Performance Assessment Reporting System within 120 days from
    the end of the evaluation period; and

           c. Require formal training for the DoD Contractor Performance
    Assessment Reporting System assessing officials and the individuals who
    review draft past performance assessment reports on writing past
    performance assessment report narratives and corresponding ratings.

    Office of the Under Secretary of Defense for Acquisition, Technology, and
    Logistics Comments. The Director, Defense Procurement and Acquisition
    Policy provided comments on behalf of the Office of the Under Secretary of
    Defense for Acquisition, Technology, and Logistics. The Director concurred with
    the recommendation and stated that the Department will issue a policy memo
    addressing the requirements.

    Air Force Comments. Although not required to comment, the Air Force Deputy
    Assistant Secretary for Contracting provided comments for the Assistant
    Secretary of the Air Force for Acquisition. The Deputy Assistant Secretary
    concurred with the recommendation and agreed to work with the Under Secretary
    of Defense for Acquisition, Technology, and Logistics.

    Audit Response. The Director, Defense Procurement and Acquisition Policy
    comments were responsive and conform to requirements; no additional comments
    are needed.

    2. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics require the Military Departments to require
    major commands to:

           a. Reconcile active contracts with contracts registered in the
    Contractor Performance Assessment Reporting System, then register and
    begin reporting on unregistered active contracts and newly awarded
    contracts.

           b. Monitor and enforce compliance with the DoD 30-day contract
    registration requirement and the DoD requirement to issue the annual past
    performance assessment report within 120 days from the end of the
    evaluation period.


                                      17
        c. Reconcile the database to ensure excess and outdated information
is deleted from the Contractor Performance Assessment Reporting System.

Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments. The Director, Defense Procurement and Acquisition
Policy provided comments on behalf of the Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics. The Director concurred with
the recommendation and stated that the Department will issue a policy memo to
the Military Departments with a requirement for the major commands to
implement guidance identified in the recommendation.

Air Force Comments. Although not required to comment, the Air Force Deputy
Assistant Secretary for Contracting provided comments for the Assistant
Secretary of the Air Force for Acquisition. The Deputy Assistant Secretary
concurred with the recommendation and agreed to work with the Under Secretary
of Defense for Acquisition, Technology, and Logistics.

Audit Response. The Under Secretary of Defense for Acquisition, Technology,
and Logistics comments were responsive and conform to requirements; no
additional comments are needed.




                                  18
Appendix A. Scope and Methodology
   We conducted this performance audit from May 2006 through December 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   Our objective was to determine whether the Military Departments were properly
   collecting and maintaining system acquisition past performance information for
   use in award decisions. We reviewed the CPARS and the PPIRS information
   maintained at the Naval Sea Logistics Center detachment in Portsmouth, New
   Hampshire. We also reviewed the PPIMS information at Army Acquisition,
   Logistics, and Technology Enterprise System Services in Radford, Virginia. We
   performed testing of the information at seven selected Military Department major
   commands: AMCOM, C-E LCMC, TACOM LCMC, NAVAIR, NAVSEA,
   AFMC-ASC, and AFSPC-SMC.

   We downloaded an inventory of system contracts from the CPARS for each of the
   seven Military Department major commands selected. There were 2,732 system
   contracts registered in the CPARS as of June 30, 2007. Army contracts accounted
   for 1,302 contracts; Navy for 1,173; and Air Force for 257. We analyzed the
   system contract information to determine the time elapsed from contract award to
   contract registration in the CPARS. We analyzed the number of system contracts
   in the CPARS that were current, due, and overdue for required annual reports.
   We updated the analysis as of June 30, 2007.

   We selected 66 past performance assessment reports at the 7 Military Department
   major commands to review the quality of the past performance assessment reports
   available for use by source selection officials in the source selection process. We
   selected a judgmental sample of 28 reports for the Army, 16 reports for the Navy,
   and 22 reports for the Air Force. We chose the past performance reports from a
   cross-section of the command directorates and programs to obtain a broad
   overview of the use of past performance information in the source selection
   process. We obtained and reviewed the sample of past performance assessment
   reports for the selected commands that were completed from 2002 to 2007. We
   conducted interviews with command officials to receive input on their processes
   for preparing past performance assessment reports. We obtained and reviewed
   back-up documentation used in the preparation of past performance assessment
   reports when available.

   We selected 60 systems contracts at the 7 Military Department major commands
   to review the use of past performance assessment reports in the source selection
   process for contract awards. We selected a judgmental sample of 21 contracts for
   the Army, 20 contracts for the Navy, and 19 contracts for the Air Force. The 60
   contracts selected for the usage analysis were selected from competitive contracts
   awarded after January 1, 1999, at the selected commands. We chose the
   60 contracts from a cross-section of the command directorates and programs to
                                       19
      obtain a broad overview of the use of past performance information in the source
      selection process. We conducted interviews with command officials to receive
      input on their processes when using past performance information in source
      selection. We also reviewed contract source selection documentation provided by
      the commands, such as request for proposals, proposal analysis reports, and
      source selection decision documents.

      We limited our review of past performance to systems contracts from the selected
      commands.

      Use of Computer-Processed Data. To achieve the audit objectives, we relied on
      computer processed data extracted from the CPARS. We did not perform a
      formal reliability assessment of the computer-processed data. We did not find
      significant anomalies within the CPARS information that would preclude the use
      of the computer-processed data to meet the audit objective or that would change
      conclusions in the report.

      Government Accountability Office High-Risk Area. The Government
      Accountability Office (GAO) has identified several high-risk areas in DoD. This
      report provides coverage of the “DoD Contract Management” high-risk area.


Prior Coverage

      During the last 5 years, GAO and the DoD Inspector General (IG) have issued
      five reports related to past performance information. Unrestricted GAO reports
      can be accessed over the Internet at http://www.gao.gov/. Unrestricted DoD IG
      reports can be accessed at http://www.dodig.mil/audit/reports.

GAO

      GAO-03-842, “CMS Contracting: Issues Concerning Administrator’s Decision to
      Exclude Subcontractor,” July 8, 2005

      GAO-03-440, “Contract Management: DLA Properly Implemented Best Value
      Contracting for Clothing and Textiles and Views the Supplier Base as Uncertain,”
      February 28, 2003

DoD IG

      DoD IG Report D-2007-007, “FY 2005 DoD Purchases Made Through the
      General Services Administration,” October 30, 2006




                                         20
DoD IG Report D-2006-061, “Source Selection Procedures for the Navy
Construction Capabilities Contract,” March 3, 2006

DoD IG Report D-2006-028, “DoD Reporting System for the Competitive
Sourcing Program,” November 22, 2005




                                 21
Appendix B. Contractor Past Performance
            Rating System
     The responsibility for completing quality performance assessment reports in a
     timely manner rests with the assessing official, who may be a program manager,
     or the equivalent individual responsible for program, project, task, job, or delivery
     order execution. That person could be the performance evaluator, quality
     assurance evaluator, requirements indicator, or contracting officer’s
     representative.
     The value of the CPARS to a future source selection team is inextricably linked to
     the care the assessing official takes in preparing a quality and timely narrative to
     accompany the CPARS ratings. It is of the utmost importance that the assessing
     official submits a rating consistent with the definitions of each rating and
     thoroughly describes the circumstances surrounding a rating.

Evaluation Rating Definitions
     In August 1999, the then-Principal Deputy Under Secretary of Defense for
     Acquisition and Technology decided that the DoD should adopt a five-point
     system for all past performance evaluations of Government contract performance.
     The following five adjectival ratings, as defined in Attachment 2 of the “DoD
     Contractor Performance Assessment Reporting System Policy Guide,” June 2007,
     comprise the DoD Assessment Rating System:

        Red (Unsatisfactory): Performance does not meet most contractual
        requirements and recovery is not likely in a timely manner. The contractual
        performance of the element or sub-element contains a serious problem(s) for
        which the contractor’s corrective actions appear to be or were ineffective. To
        justify an Unsatisfactory rating, identify multiple significant events in each
        category that the contractor had trouble overcoming and state how it impacted
        the Government. A singular problem, however, could be of such serious
        magnitude that it alone constitutes an Unsatisfactory rating.

        Yellow (Marginal): Performance does not meet some contractual
        requirements. The contractual performance of the element or sub-element
        being assessed reflects a serious problem for which the contractor has not yet
        identified corrective actions. The contractor’s proposed actions appear only
        marginally effective or were not fully implemented. To justify Marginal
        performance, identify a significant event in each category that the contractor
        had trouble overcoming.

        Green (Satisfactory): Performance meets contractual requirements. The
        contractual performance of the element or sub-element contains some minor
        problems for which corrective actions taken by the contractor appear to be or
        were satisfactory. To justify a Satisfactory rating, there should have been
        only

                                          22
       minor problems, or major problems the contractor recovered from without
       impact to the contract. There should have been NO significant weaknesses
       identified.

       Purple (Very Good): Performance meets contractual requirements and
       exceeds some to the Government’s benefit. The contractual performance of
       the element or sub-element being assessed was accomplished with some
       minor problems for which corrective actions taken by the contractor was
       effective. To justify a Very Good rating, identify a significant event and state
       how it was a benefit to the Government. There should have been no
       significant weaknesses identified.

       Dark Blue (Exceptional): Performance meets contractual requirements and
       exceeds many to the Government’s benefit. The contractual performance of
       the element or sub-element being assessed was accomplished with few minor
       problems for which corrective actions taken by the contractor was highly
       effective. To justify an Exceptional rating, identify multiple significant events
       and state how they were of benefit to the Government. Also, there should
       have been NO significant weaknesses should be identified.

    The CPARS process was designed with a series of checks-and-balances to
    facilitate the objective and consistent evaluation of contractor performance. Both
    Government and contractor perspectives are captured on the CPARS form. The
    opportunity to review or comment on the CPARS form by the designated
    Government and contractor personnel together makes a complete performance
    assessment report.

DoD Past Performance Rating Categories
    The CPARS performance assessment report rates each contract by the DoD past
    performance rating categories by the technical quality of product, schedule, cost
    control, and management. The technical category includes six sub-elements and
    the management category includes three sub-elements. Each of the four
    categories and each of the sub-elements are rated separately when applicable to
    the contract. The following are excerpts from Attachment 3 of the “DoD
    Contractor Performance Assessment Reporting System Policy Guide,” June 2007,
    that provided instructions for completing a system or ship repair and overhaul
    Contractor Performance Assessment Report.

    Technical (Quality of Product). This element is comprised of an overall rating
    and six sub-elements. Activity critical to successfully complying with contract
    requirements must be assessed within one or more of these sub-elements.

       •   Product Performance. Assess the achieved product performance relative
           to performance parameters required by the contract.

       •   Systems Engineering. Assess the contractor’s effort to transform
           operational needs and requirements into an integrated system design
           solution.

                                        23
   •   Software Engineering. Assess the contractor’s success in meeting
       contract requirements for software development, modification, or
       maintenance.

   •   Logistic Support/Sustainment. Assess the success of the contractor’s
       performance in accomplishing logistics planning.

   •   Product Assurance. Assess how successfully the contractor meets
       program quality objectives; e.g., producibility, reliability, maintainability,
       inspectability, testability, and system safety, and controls the overall
       manufacturing process.

   •   Other Technical Performance. Assess all the other technical activity
       critical to successful contract performance. Identify any additional
       assessment aspects that are unique to the contract or that cannot be
       captured in another sub-element.

Schedule. Assess the timeliness of the contractor against the completion of the
contract, task orders, milestones, delivery schedules, administrative requirements,
etc.

Cost Control. Assess the contractor’s effectiveness in forecasting, managing,
and controlling contract cost. Not applicable for Firm-Fixed Price or Firm-Fixed
Price with Economic Price Adjustment.

Management. This element is comprised of an overall rating and three sub-
elements. Activity critical to successfully executing the contract must be assessed
within one or more of these sub-elements.

   •   Management Responsiveness. Assess the timeliness, completeness, and
       quality of problem identification, corrective action plans, proposal
       submittals (especially responses to change orders, Engineering Change
       Proposals (ECPs), or other UCAs [undefinitized contracts]), the
       contractor’s history of reasonable and cooperative behavior, effective
       business relations, and customer satisfaction.

   •   Subcontract Management. Assess the contractor’s success with timely
       award and management of subcontracts. If the contract has a small business
       subcontracting plan, the evaluation must address whether the contractor met
       its small business subcontracting plan goals.

   •   Program Management and Other Management. Assess the extent to
       which the contractor discharges its responsibility for integration and
       coordination of all activity needed to execute the contract; identifies and
       applies resources required to meet schedule requirements; assigns
       responsibility for tasks/actions required by the contract; communicates
       appropriate information to affected program elements in a timely manner.
       Assess the contractor’s risk management practices, especially the ability to
       identify risks and formulate and implement risk mitigation plans. If

                                     24
applicable, identify any other areas that are unique to the contract, or that
cannot be captured elsewhere under the Management element.




                              25
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Commander, Aviation and Missile Command
Commander, Communications-Electronics Life Cycle Management Command
Commander, Tank-Automotive and Armaments Life Cycle Management Command
Auditor General, Department of the Army

Department of the Navy
Commander, Naval Air Systems Command
Commander, Naval Sea Systems Command
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Commander, Air Force Materiel Command-Aeronautical System Center
Commander, Air Force Space Command–Space and Missile Center
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          26
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      27
Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics
Comments




                       29
30
Department of the Air Force Comments




                     31
32
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Benjamin A. Mehlman
Rudolf Noordhuizen
George A. Ford
Lisa E. Novis
Cecil B. Tucker
Ryan D. Berkheimer
Loriann Rivera-Nieves
Meredith H. Johnson
